               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Overtime Use During
           Fiscal Years 2011 and 2012

                       Audit Report




                                              July 5, 2013

Report Number HR-AR-13-002
                                                                                    July 5, 2013

                                                         Overtime Use During Fiscal Years
                                                                           2011 and 2012

                                                               Report Number HR-AR-13-002



BACKGROUND:
The U.S. Postal Service has launched           between $65,000 and $76,000 each for
various initiatives to address its financial   overtime workhours, which more than
challenges, many resulting in workforce        doubled their salaries. Also, we found
changes that have contributed to               mail did not always arrive at delivery
increased overtime workhours. The              units timely, resulting in carriers waiting
Postal Service uses overtime workhours         to begin their work and having to use
to provide flexibility and meet its            overtime to complete deliveries. We
operational requirements without having        estimated the Postal Service paid
to increase overall staffing levels.           $2,312,303 in FY 2011 and $4,450,003
Management has set a target rate for           in FY 2012 for overtime associated with
overtime hours of about 5 percent. We          late trips in three of the four districts we
initiated this audit in response to a          visited. Further, an agreement between
request from the postmaster general.           the Postal Service and a local union in
Our objectives were to determine the           the Houston District resulted in
reasons for significant overtime use and       increased overtime costs. In addition,
assess how management uses the time            although the time and attendance
and attendance collection system to            collection system did not send automatic
manage overtime.                               alerts, managers and supervisors at the
                                               facilities we visited used system reports
WHAT THE OIG FOUND:                            to monitor workhours, overtime hours,
Overtime hours accounted for 7.4 and           and unauthorized overtime use.
7.8 percent of total workhours in fiscal
years (FY) 2011 and 2012, respectively.        WHAT THE OIG RECOMMENDED:
This rate is well above the Postal             We recommended management:
Service's target rate of 5 percent. We         establish a plan to address staffing
reviewed overtime use in three districts       vacancies and better align the workforce
with the highest rates over the past           to workload, require officials at identified
5 years and one district where                 mail processing facilities and delivery
employees received the highest                 units to implement plans to better align
overtime dollars and determined the            mail arrival times and carrier schedules,
Postal Service incurred significant            require supervisors to monitor carrier
overtime workhour use because                  workload and conduct street
management did not always align                supervision, and pursue changes to
workforce to workload or provide               local agreements in the Houston District.
adequate supervisory oversight. In
FY 2012, the Postal Service paid               Link to review the entire report
seven mail handlers at one facility
July 5, 2013


MEMORANDUM FOR:            EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                           DOUGLAS A. TULINO
                           VICE PRESIDENT, LABOR RELATIONS

                           DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS


                                E-Signed by Lorie Nelson
                           ERIFY authenticity with eSign Deskto



FROM:
                           for
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Overtime Use During Fiscal Years 2011 and
                           2012 (Report Number HR-AR-13-002)

This report presents the results of our audit of Overtime Use During Fiscal Years 2011
and 2012 (Project Number 12YG040HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, deputy
director, Human Resources and Security, or me at 703-248-2100.

Attachment

cc: Megan J. Brennan
    Jeffrey C. Williamson
    Timothy F. O'Reilly
    Sean Lacey
    Vice Presidents, Area Operations
    Corporate Audit and Response Management
Overtime Use During Fiscal Years 2011 and 2012                                                                      HR-AR-13-002



                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Workforce Alignment ....................................................................................................... 2

Supervisory Oversight ..................................................................................................... 4

Late Trips ........................................................................................................................ 5

Local Agreement ............................................................................................................. 7

Time and Attendance Collection System......................................................................... 7

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objectives, Scope, and Methodology ........................................................................ 12

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Monetary Impact ....................................................................................... 16

Appendix C: Management's Comments ........................................................................ 17
Overtime Use During Fiscal Years 2011 and 2012                                             HR-AR-13-002



Introduction

This report presents the results of our audit of Overtime Use During Fiscal Years (FY)
2011 and 2012 (Project Number 12YG040HR000). The report responds to a request
from the postmaster general and addresses financial and operational risk. Our
objectives were to determine the reasons for significant overtime workhour use and
assess how management uses the Time and Attendance Collection System (TACS) to
manage overtime.

The U.S. Postal Service uses overtime workhours to provide flexibility and meet its
operational requirements efficiently without having to increase its overall staffing
complement. Management has set a target rate for overtime use of about 5 percent.

The Postal Service has launched various initiatives to address its financial challenges,
many resulting in workforce changes. Although overtime rates at some facilities were
high prior to these efforts, workforce changes contributed to increased overtime
workhours as a percentage of total workhours. As shown in Table 1, the Postal Service
has reduced total workhours by 18 percent from FY 2008 to FY 2012, resulting in
workhour savings of over $3 billion in FY 2012. The Postal Service reduced overtime
costs from $3.73 billion in FY 2008 to $3.53 billion in FY 2012. However, after a
significant decrease in FY 2009, the overtime percentage has increased in each of the
last 3 fiscal years.

                        Table 1. Workhours and Overtime Percentage




Source: FY 2012 Form 10-K Financial Report.          Source: National Payroll Hourly Summary reports.


The Postal Service paid overtime costs totaling $3.53 billion in FY 2012, compared to
$3.31 billion in FY 2011, $2.96 billion in FY 2010, and $2.52 billion in FY 2009. See
Appendix A for additional information about this audit.




                                                 1
Overtime Use During Fiscal Years 2011 and 2012                                                         HR-AR-13-002



Conclusion

Overtime hours accounted for 7.4 and 7.8 percent of total workhours in FYs 2011 and
2012, respectively — well above the Postal Service's target rate of 5 percent. At the
locations we visited, we determined the Postal Service incurred significant overtime
workhour use primarily because the workforce was not aligned with workload, there was
inadequate supervisory oversight; mail arrived late at the delivery units, and a union
agreement was negotiated at the local level. In addition, although TACS did not send
automatic alerts, Postal Service managers and supervisors at the facilities we visited
used TACS reports to monitor workhours, overtime hours, and unauthorized overtime
use.

We identified 65,553 and 122,765 stand-by hours 1 in FYs 2011 and 2012, respectively,
for three of the four districts 2 we visited, at a cost to the Postal Service of $7,513,674.
We estimate that 90 percent of these costs are associated with late trips 3 for $6,762,306
($2,312,303 for FY 2011 and $4,450,003 for FY 2012). See Appendix B for our
calculation of monetary impact.

Workforce Alignment

Management did not always ensure that workforce aligned with the workload. We found
that certain facilities in the Houston, Chicago, South Florida, and Hawkeye districts
experienced significant mail volume changes due to consolidations and network
optimization efforts. However, management did not always ensure that staffing was
commensurate with the increased workload. In addition, management did not replace
employees lost to attrition due to a hiring freeze. For example:

   In FY 2009, the Postal Service consolidated several operations into the South
    Florida Logistics & Distribution Center (L&DC). However, according to district
    management, the South Florida L&DC remained understaffed and used overtime to
    meet service standards. 4 Management at the South Florida L&DC stated that they
    did not fill vacant positions because they wanted to ensure enough positions were
    available for career employees impacted by other facility closings and consolidations
    in the district. They did enter into multiple agreements with the National Postal Mail
    Handlers Union to employ noncareer employees in excess of the 12.5 percent
    specified in the national agreement to help preserve service standards and reduce
    overtime.

   Beginning in FY 2009, Postal Service Headquarters converted bulk mail centers
    across the country into 21 network distribution centers (NDC) to improve efficiency.

1
  Hours recorded when there is insufficient work available. Normally used for unplanned, low work volume periods on
a particular day or days, or unplanned events such as late mail delivery.
2
  South Florida, Houston, and Chicago.
3
  To designate the time, schedule, mode of transportation (such as air, highway, or rail) and the line of travel to be
used in dispatching mail from a postal unit or transportation unit.
4
  Service standards represent the level of service that the Postal Service strives to provide customers. These
standards are considered to be one of the agency’s primary operational goals.


                                                          2
Overtime Use During Fiscal Years 2011 and 2012                                                          HR-AR-13-002



    As part of the transition, mail volume at the Des Moines NDC increased by 91
    percent. 5 Western Area and Hawkeye District officials negotiated staffing targets for
    the Des Moines NDC, which increased the complement by 94 percent, from 168 to
    326. Still, of the 21 NDCs, the Des Moines NDC incurred the highest overtime rate in
    FYs 2011 and 2012 (18.1 and 21 percent, respectively). Management stated that the
    facility used overtime at a rate of about 22 percent of total workhours to meet service
    standards. As shown in Table 2, in FY 2012, the Postal Service paid seven mail
    handlers at that facility between $65,000 and $76,000 each for overtime workhours,
    representing between 145 and 159 percent of their regular salaries.

                      Table 2. Mail Handler Overtime at Des Moines NDC

                                                                                             Percentage of
                                                                                               Overtime
         Mail              FY 2012                                    Total                    Dollars to
        Handler             Salary             Overtime            Compensation                 Salary*
          1                  $47,378            $75,460                $122,838                        159%
          2                  $46,472            $73,418                $119,890                        158%
          3                  $44,871            $69,445                $114,315                        155%
          4                  $44,383            $68,464                $112,847                        154%
          5                  $46,338            $68,369                $114,707                        148%
          6                  $46,439            $67,287                $113,726                        145%
          7                  $44,320            $65,006                $109,326                        147%
    *Rounded.
    Source: Postal Service Payroll System.

    Management at the Des Moines NDC indicated these individuals incurred high
    overtime workhours because the NDC has been significantly understaffed since the
    conversion in 2009. However, we noted that some individuals who incurred high
    overtime in FY 2012 also incurred high overtime in prior years as well. 6 According to
    the area operations support manager, they are coordinating with district officials to
    develop a complement plan to support the workload at the Des Moines NDC.

   As part of ongoing optimization efforts, management moved certain operations
    performed at the Chicago Processing and Distribution Center (P&DC) to other
    locations. Accordingly, 214 clerks were excessed 7 and moved to new locations,
    replacing the lowest-seniority clerks throughout the district with higher seniority
    clerks from the Chicago P&DC. However, these clerks did not know the addresses
    associated with each route at their new locations. District personnel hired Postal

5
  Management at the Des Moines NDC also stated that the shortage of mail handlers was intensified because a
towline system that automatically moved mail throughout the building was inoperable for about 18 months, resulting
in the need for additional mail handlers.
6
  Ten individuals who incurred the highest overtime in 2012 were in the Hawkeye District – seven of whom were at
the Des Moines NDC. Four of the 10 incurred high overtime prior to the conversion.
7
  Term used to describe a situation in which the number of employees in a section, craft, or installation needs to be
reduced more rapidly than can be done through attrition.


                                                           3
Overtime Use During Fiscal Years 2011 and 2012                                                      HR-AR-13-002



    Support Employees (PSE) 8 to address the issue but stated that overtime was still
    necessary to meet service standards.

   Four delivery units 9 we visited in the Houston District had a shortage of letter
    carriers. Supervisors stated that they used overtime to cover vacant routes because
    they were not able to hire new employees due to the hiring freeze. The overtime
    rates ranged from 16 to 22 percent in FY 2011 and from 21 to 28 percent in
    FY 2012. Table 3 shows the number of carriers needed, the number assigned, and
    the deficiency at the four locations.

                                 Table 3. Houston District Complement

                                            Carriers               Carriers
               Location                     Needed                 Assigned              Difference
             Oak Forest                         96                     90                      6
             North Shepherd                    133                    119                     14
             Westbury                           70                     61                      9
             De Moss                            99                     89                     10
                            10
        Source: webCoins.

Management could not locate staffing plans for the South Florida L&DC and the Des
Moines NDC because significant time has elapsed since the staffing plans were
developed and the U.S. Postal Service Office of Inspector General (OIG) review took
place. Therefore, we could not validate planned workload and workhours for those
locations and could not determine whether the overtime levels incurred at the facilities
we visited were planned or reasonable.

A senior Labor Relations management official stated that over the past several years,
the Postal Service has had numerous events related to network optimization that has
required them to withhold vacant bargaining unit positions for placement of impacted
career employees pursuant to their contractual obligations. This typically results in using
overtime as a temporary staffing solution to cover the shortage caused by not filling
positions.

When the workforce is not adequately aligned to the workload, overtime rates often
remain high to ensure the Postal Service meets service standards.

Supervisory Oversight

Supervisors in the Chicago District did not provide adequate oversight to ensure that
carriers were scheduled and overtime was minimized.


8
  Non-career, bargaining unit employees hired for a term not to exceed 360 calendar days, followed by a 5-day break
in service and potential not to exceed 360 day reappointment if there is still an operational need.
9
  Oak Forest, North Shepherd, Westbury, and De Moss Stations.
10
   Computer application designed to give local management timely and accurate complement information.


                                                         4
Overtime Use During Fiscal Years 2011 and 2012                                                HR-AR-13-002



Specifically:

    The City Delivery Pivot Opportunity Model identified an average of 18 routes at the
     xxxxxxxxxxxxx Station that should have been pivoted daily; however, supervisors did
     not take advantage of pivot opportunities. Pivoting involves dividing routes so that
     several carriers can do a section of the route, after completing their own route.
     Several management officials in the Chicago District stated that pivoting
     opportunities diminished because of frequent late trips from the processing plants
     (see the Late Trips section of this report).

    Supervisors at three sites 11 we visited did not consistently perform street supervision
     to observe carrier performance on their routes. The Chicago District manager issued
     a directive in May 2012 requiring supervisors to conduct 2 hours of street
     supervision each day. According to officials at the xxxxxxxxxxxxxxxx Station, they
     did not consistently perform the street supervision because other duties, such as
     delivery operations, mail distribution, and customer care took precedence.

Postal Service City Delivery Standard Operating Procedures state that the delivery unit
supervisor’s primary responsibility is to match workhours to workload. This responsibility
includes assessing unit workload and the validity of carrier overtime, determining
individual carrier assignments based on workload, conducting street supervision to
observe carrier performance on their routes, addressing unauthorized overtime, and
conducting performance discussions with carriers. 12 When supervisors do not provide
adequate supervision and align workforce to workload, the Postal Service incurs
unnecessary overtime.

Late Trips

Eight units13 we visited did not always receive mail timely from the processing plants
and, as a result, management placed carriers on stand-by time until mail was received.
Since actual delivery times vary and carrier start-time changes greater than 1 hour
require job re-posting, it is not practical to revise carrier start times. When this happens,
carriers leave their stations later than scheduled and often incur overtime to complete
their routes. For example:

    The Houston District finance manager stated that the primary cause of stand-by time
     for letter carriers was late mail arrival from the processing facilities.

    Chicago managers stated that the mail was frequently delivered up to 2 hours after
     the scheduled delivery time, causing them to place carriers on stand-by time. The
     senior plant manager for the Chicago P&DC, which processes the mail for five of the
     facilities, stated that the plant often receives late mail from the South Suburban and

11
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx stations.
12
   City Delivery Standard Operating Procedures.
13
   Fort Dearborn, Roberto Clemente, and Cragin stations; the Central Carrier Annex; and the
Miami-Olympia Heights, Miami-Norland, Hollywood Main, and Miami Country Lakes branches.


                                                        5
Overtime Use During Fiscal Years 2011 and 2012                                                    HR-AR-13-002



       Carol Stream facilities and, once received, plant personnel must sort it to carrier
       routes prior to sending it to the delivery units. The senior plant manager contacted
       the area vice president on September 20, 2012 regarding the issue and they are
       currently investigating methods to improve efficiency so that mail can be dispatched
       to the delivery units on time.

      Officials at all the delivery units 14 we visited in the South Florida District stated that
       they frequently receive mail late from the plants. For example, at the Miami-Norland
       Branch facility, Priority Mail can arrive up to 4 hours late. In addition, mail from the
       processing plant was often sent to the facilities without being processed, resulting in
       additional delays while personnel sort the mail. Figure 1 shows an example of a mail
       tag that was attached to unprocessed mail sent to the delivery unit. A senior plant
       manager stated that the facility did not have an adequate number of mail handlers,
       which resulted in late dispatches.

                                    Figure 1. Unprocessed Mail Tag




                                     Unprocessed Mail Tag from
                                    Miami-Olympia Heights Branch
                      Source: OIG photograph taken at the Miami-Olympia Heights Branch facility
                      on November 27, 2012.

We identified 65,553 and 122,765 stand-by hours for Function 2 15 employees in
FYs 2011 and 2012, respectively, for three districts we visited, at a cost to the
Postal Service of about $7.5 million. We estimated that 90 percent of these costs are
associated with late trips in the amount of $6,762,306 ($2,312,303 for FY 2011 and
$4,450,003 for FY 2012).
14
     Miami-Norland, Miami Country Lakes, Miami-Olympia Heights, and Hollywood Main branches.
15
     Delivery Services workhours.


                                                         6
Overtime Use During Fiscal Years 2011 and 2012                                                   HR-AR-13-002



Local Agreement

An agreement between the Postal Service and the local National Association of Letter
Carriers (NALC) union in the Houston District resulted in increased overtime costs.
National bargaining unit agreements allow local unions to negotiate their own
agreements for limited issues. These issues include scheduling for leave, days off,
holidays, and overtime. 16 In FY 1993, the Houston District entered into an indefinite
agreement with the local NALC that requires the Postal Service to pay letter carriers
$10 per hour for any time worked after 5:15 p.m., in addition to regular or overtime pay.

The Postal Service paid $1.78 million and $1.56 million in FYs 2011 and 2012,
respectively, for grievance settlements relating to the 'after 5:15 p.m.' agreement. In
2012, 2,683 employees received this 'after 5:15 p.m.' payout, at an average of $581 per
employee. The highest individual payout was $3,238 in 2012, and 550 employees
received payouts of more than $1,000. See Table 4 for a summary of the payments.

                    Table 4. Payments for Overtime Related Grievances

                              Fiscal Year                   After 5:15 p.m. Costs

                      2010                               $1.28 million
                      2011                               $1.78 million
                      2012                               $1.56 million
                     Source: Houston District, Labor Relations.

Time and Attendance Collection System

TACS did not provide automatic alerts to supervisors regarding overtime use, but
information was available to assist managers and supervisors in controlling overtime. A
senior Postal Service official stated that TACS is a timekeeping database and was not
designed for this purpose. However, Postal Service managers and supervisors at the
facilities we visited had access to TACS and TACS-generated reports such as:

    Employees on the Clock, which displays all employees on long-term higher level
     details.

    Overtime Alert, which lists employees in overtime status for the week and individuals
     approaching overtime for the week.

    Unauthorized Overtime, which lists employees with overtime worked that exceeds
     the amount of overtime authorized.



16
  Handbook EL-901, Agreement between the United States Postal Service and the National Association of Letter
Carriers.


                                                        7
Overtime Use During Fiscal Years 2011 and 2012                                   HR-AR-13-002



They used these reports to monitor workhours, overtime hours, and unauthorized
overtime use. In addition, the respective area or district offices periodically provided
TACS information to the managers and supervisors to assist them in managing their
operations. However, we determined that, although managers and supervisors at the
locations we visited had access to reports from TACS, they still incurred a high number
of overtime workhours due to the issues we identified in this report.

Recommendations

We recommend the vice presidents, Delivery and Post Office Operations and Network
Operations:

 1. Require responsible management officials to conduct complement analyses and
    establish staffing plans for the Houston, Chicago, South Florida, and Hawkeye
    districts to better align the workforce to the workload.

 2. Require responsible officials at identified mail processing facilities and delivery units
    to implement a plan to ensure mail arrival times and carrier schedules are aligned
    to minimize stand-by time and associated overtime (see the Late Trips section of
    this report for specific locations).

We recommend the vice president, Delivery and Post Office Operations:

 3. Implement controls to ensure supervisors at the Fort Dearborn, Roberto Clemente,
    and Cragin stations take advantage of pivot opportunities and conduct street
    supervision of carriers.

We recommend the vice presidents, Labor Relations and Delivery and Post Office
Operations:

 4. Pursue changes to local agreements in the Houston District associated with strict
    rotation and the requirement for the Postal Service to pay letter carriers an
    additional $10 per hour for any hour they work after 5:15 p.m.

Management’s Comments

Management agreed with all of the recommendations but disagreed with the monetary
impact. Management indicated that some statements in the report do not reflect overall
Postal Service conditions. Specifically, the audit had a limited sampling of facilities that
are not representative of the country as a whole and also have the highest overtime
rates. They stated that a general theme throughout the report was that the Postal
Service’s workforce is not aligned with the workload and that the OIG fails to understand
an organization in transition. They acknowledged that during transitional activities,
including those successfully undertaken in the past 2 years, there are periods where the
workforce does not align to workload and overtime will increase. However, they advised
the key is workhours and showed the reduction by function since FY 2010.



                                                 8
Overtime Use During Fiscal Years 2011 and 2012                                  HR-AR-13-002



Management also stated that while contractual provisions and the reduction in
workforce statute that govern the movement of employees in the Postal Service cause
temporary staffing imbalances, they result in future efficiencies.

Regarding recommendation 1, management stated they will conduct complement
analyses and establish staffing plans for the Houston, Chicago, South Florida, and
Hawkeye districts by February 2014.

Regarding recommendation 2, management stated they will review and monitor mail
arrival times and carrier schedules and will align carrier start time and truck schedules
to minimize stand-by time by February 2014.

Regarding recommendation 3, management stated they will implement controls to
ensure supervisors at the Fort Dearborn, Roberto Clemente, and Cragin stations take
advantage of pivot opportunities and conduct street supervisions of carriers by
September 2013.

Regarding recommendation 4, management stated their new employee classification
(city carrier associate) will help the Houston District reduce city delivery overtime costs.
Delivery Operations and Labor Relations personnel will also engage the union to
address difficulties caused by locally developed agreements and district Labor Relations
personnel will provide training on overtime scheduling procedures to managers and
supervisors by February 2014.

Regarding the $6.7 million in funds put to better use, management disagreed with the
methodology because it assumes that 90 percent of all carrier stand-by hours translates
to overtime hours. Management stated they use stand-by hours for a variety of
circumstances, including documentation of instances when a carrier has less than 8
hours of work; and that not every stand-by hour translates to an overtime hour. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding workforce alignment and resources that govern employee movement, we
acknowledge management’s transitional activities and that they may result in increased
overtime. However, we continue to believe, based on the locations visited, that
management could implement procedures and improve planning to better align the
workforce to workload to reduce overtime over the long term.

Regarding the $6.7 million in funds put to better use, we recognize there are other
legitimate reasons for using stand-by time. However, management could not provide a
breakdown of stand-by costs by reason. As such, we estimated that at least 90 percent




                                                 9
Overtime Use During Fiscal Years 2011 and 2012                                HR-AR-13-002



of total stand-by hours resulted from late trips based in part on information we obtained
from management at the locations we visited.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 10
Overtime Use During Fiscal Years 2011 and 2012                                                      HR-AR-13-002




                                Appendix A: Additional Information

Background

The Postal Service has launched various initiatives to address its financial challenges,
many resulting in workforce changes. For example, in FY 2011, the postmaster general
and chief executive officer, announced efficiency improvements, including:

    Decreasing the number of headquarters management positions.

    Reducing the number of area and district offices.

    Reducing the number of administrative, executive, and postmaster positions by
     about 7,500.

    Offering both voluntary and incentivized retirement to employees who qualify under
     current rules for retirement incentives.

In addition, on May 17, 2012, the Postal Service announced a phased plan to
consolidate its network of 461 mail processing locations. The first phase will result in
about 146 consolidations through FY 2013. Unless the Postal Service’s circumstances
change, a second phase of 114 consolidations is scheduled to begin in February 2014.
When fully implemented, the consolidations are expected to reduce costs by $2.1 billion
annually.

The Postal Service has also reduced staffing levels by more than 100,000 career
employees and projects a further reduction of the equivalent of 155,000 full-time career
employees by FY 2016. As of September 30, 2012, the Postal Service had about
528,000 career employees and 101,000 noncareer employees.

These workforce changes contributed to increased overtime 17 workhours as a
percentage of total workhours. However, increased use of noncareer employees,
including PSEs and city carrier assistants (CCA) 18 may reduce overtime. These
noncareer employees will make up about 20 percent of the workforce.

Overtime workhours are a significant cost to the Postal Service annually. While
management has reduced total workhours to compensate for the reduced volume,
overtime workhours as a percentage of total workhours has increased in each of the last
3 fiscal years. Overtime hours accounted for 7.4 and 7.8 percent of total workhours in



17
   Overtime is a premium paid to eligible employees for work performed after 8 paid hours in any 1 service day, or
40 paid workhours in any 1 service week. The Fair Labor Standards Act (FLSA) requires payment of overtime wages
to employees who work in excess of 40 hours in an FLSA work week.
18
   CCAs are hired for a term not to exceed 360 calendar days for each appointment. The appointment must be
exactly 360 days if the employee is being rehired as a CCA. CCAs have a break in service of exactly 5 days.


                                                        11
Overtime Use During Fiscal Years 2011 and 2012                                                       HR-AR-13-002



FYs 2011 and 2012, respectively — well above the Postal Service’s planned rate of
5 percent. The Postal Service paid overtime costs totaling $3.53 billion in FY 2012,
compared to $3.31 billion in FY 2011 and $2.96 billion in FY 2010.

Objectives, Scope, and Methodology

Our objectives were to determine the reasons for significant overtime use and assess
how supervisors use TACS to manage overtime. To accomplish our objective, we:

    Identified, reviewed, and documented the Postal Service’s overtime procedures. 19

    Reviewed contracts between the Postal Service and the labor unions for overtime
     processes.

    Identified districts with the highest rates of overtime over the past 5 years (Chicago,
     Philadelphia, Triboro, South Florida, and Houston).

    Judgmentally selected eight facilities from the Houston District, six facilities from the
     Chicago District, and six facilities from the South Florida District for field review
     because of high overtime workhour use in those districts. 20

    Selected three facilities from the Hawkeye District for review where 10 of the 20
     highest paid craft employees for FYs 2011 and 2012 are employed to determine the
     reasons for the overtime use (see Table 5 for the list of facilities visited).

    Interviewed managers and other district personnel in the Chicago, South Florida,
     Hawkeye, and Houston districts to determine the causes of increased overtime and
     how they monitored and controlled overtime.

    Interviewed managers and supervisors at each of the 23 facilities (see Table 5) to
     determine the need for overtime, the process for approving overtime, and actions
     management could implement to reduce overtime use.

    Identified and interviewed 10 of the 20 highest paid craft employees for FYs 2011
     and 2012 to determine the reasons for their overtime use. The 10 employees worked
     in the Hawkeye District.




19
 Employee and Labor Relations Manual, August 2012.
20
 The 20 facilities selected included Function 1 Mail Processing, Function 2 Delivery Operations, Function 3A Vehicle
Maintenance and Vehicle Operators, Function 3B Plant and Office Maintenance, and Function 4 Customer Service
Operations.


                                                         12
 Overtime Use During Fiscal Years 2011 and 2012                                                   HR-AR-13-002




                                      Table 5. Facilities Visited

               PERFORMANCE                                      CITY,
    AREA         CLUSTER                FACILITY               STATE                AREA REVIEWED
 Southern      Houston            Cypress Post Office        Cypress, TX   Function 2, Delivery Operations
                                                             Houston, TX   Function 1, Mail Processing
 Southern      Houston            North Houston P&DC                       Operations; Function 3B, Plant and
                                                                           Post Office Maintenance
 Southern      Houston            De Moss Station            Houston, TX   Function 2, Delivery Operations
 Southern      Houston            Westbury Station           Houston, TX   Function 2, Delivery Operation
 Southern      Houston            Oak Forest Station         Houston, TX   Function 2, Delivery Operations
                                  North Shepherd             Houston, TX
 Southern      Houston                                                     Function 2, Delivery Operations
                                  Station
                                  Central Vehicle            Houston, TX   Function 3A, Vehicle Maintenance
 Southern      Houston
                                  Maintenance Facility                     and Vehicle Operators
                                  North Administrative       Houston, TX   Function 4, Customer Service
 Southern      Houston
                                  Office                                   Operations
                                                             Chicago, IL   Function 1, Mail Processing
 Great Lakes   Chicago            Chicago P&DC
                                                                           Operations
 Great Lakes   Chicago            Central Carrier Annex      Chicago, IL   Function 2, Delivery Operations
 Great Lakes   Chicago            Fort Dearborn Station      Chicago, IL   Function 2, Delivery Operations
                                                             Chicago, IL   Function 2, Delivery Operations;
                                  Roberto Clemente
 Great Lakes   Chicago                                                     Function 4, Customer Service
                                  Station
                                                                           Operations
 Great Lakes   Chicago            Cragin Station             Chicago, IL   Function 2, Delivery Operations
 Great Lakes   Chicago            Morgan Park Station        Chicago, IL   Function 2, Delivery Operations
                                                             Opa Locka,    Function 1, Mail Processing
 Southern      South Florida      South Florida L&DC         FL            Operations; Function 3B, Plant and
                                                                           Post Office Maintenance
                                                             Fort
                                                                           Function 3A, Vehicle Maintenance
 Southern      South Florida      Fort Lauderdale P&DC       Lauderdale,
                                                                           and Vehicle Operators
                                                             FL
                                                             Miami, FL     Function 2, Delivery Operations;
 Southern      South Florida      Country Lakes Branch                     Function 4, Customer Service
                                                                           Operations
 Southern      South Florida      Miami-Norland Branch       Miami, FL     Function 2, Delivery Operations
                                                             Miami, FL     Function 2, Delivery Operations;
 Southern      South Florida      Miami-Olympia Heights                    Function 4, Customer Service
                                                                           Operations
                                                             Hollywood,    Function 2, Delivery Operations;
                                  Hollywood Main
 Southern      South Florida                                 FL            Function 4, Customer Service
                                  Station
                                                                           Operations
                                                           Des Moines,     Function 1, Interviewed employees
 Western       Hawkeye            Des Moines NDC
                                                           IA              with highest national overtime hours
                                                           Des Moines,     Function 1, Interviewed employees
 Western       Hawkeye             Des Moines P&DC
                                                           IA              with highest national overtime hours
                                   Cedar Rapids Post       Cedar           Function 1, Interviewed employees
 Western       Hawkeye
                                   Office                  Rapids, IA      with highest national overtime
Source: OIG data analysis from August 20 through November 29, 2012.




                                                        13
Overtime Use During Fiscal Years 2011 and 2012                               HR-AR-13-002



We conducted this performance audit from July 2012 through July 2013 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those standards
require we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. The evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management on April 30, 2013, and included their comments where
appropriate.

We tested the reliability of the Enterprise Data Warehouse data and tested eFlash
through conversations with Postal Service finance officials knowledgeable of the
systems. We determined the data were sufficiently reliable for the purposes of this
report.




                                                 14
Overtime Use During Fiscal Years 2011 and 2012                               HR-AR-13-002




Prior Audit Coverage

                                                          Final
                                                         Report     Monetary Impact
           Report Title            Report Number          Date        (in millions)
 Unauthorized Overtime Usage HR-AR-12-003              3/30/2012          $717.5
 in Field Operations
 Report Results:
 The Postal Service has established procedures to assist supervisors with monitoring
 and controlling unauthorized overtime. However, managers and supervisors did not
 always follow the prescribed procedures. Specifically they did not always complete
 and maintain Postal Service (PS) Form 1017-B, Unauthorized Overtime Record, for
 employees who incurred unauthorized overtime; provide carriers with feedback when
 they submitted PS Form 3996, Carrier – Auxiliary Control, to request assistance or
 overtime; update TACS to reflect authorized overtime; and control employee’ access
 to time cards. As a result, we identified 7.5 million unauthorized overtime workhours
 in FY 2010 and 10.6 million in FY 2011, at a combined cost of $717.5 million.
 Management agreed with the findings, recommendations, and monetary impact.

 Overtime Usage                         HR-AR-11-003   3/31/2011           None
 Report Results:
 The Postal Service paid $2.9 billion in overtime for FY 2010 compared to $2.4 billion
 in FY 2009, representing an increase of 17.2 percent. The report also stated that
 management did not effectively plan for overtime usage as they exceeded their
 planned overtime hours by 67.8 percent in FY 2010. Management agreed with our
 findings and recommendations.




                                                 15
Overtime Use During Fiscal Years 2011 and 2012                                                HR-AR-13-002




                                      Appendix B: Monetary Impact

             Recommendation                     Impact Category                        Amount
                   2                     Funds Put To Better Use 21                   $6,762,306

To determine the monetary impact, we obtained stand-by hours for Function 2
employees for FYs 2011 and 2012 at the three districts we visited. We multiplied these
hours by the average hourly overtime rate for each fiscal year. We identified 65,553
stand-by hours in FY 2011 and 122,765 stand-by hours in FY 2012, at a cost to the
Postal Service of $7,513,673. We estimate that 90 percent of these costs are
associated with late trips in the amount of $6,762,306 ($2,312,303 for FY 2011 and
$4,450,003 for FY 2012).




21
     Funds that could be used more efficiently by implementing recommended actions.


                                                         16
Overtime Use During Fiscal Years 2011 and 2012                 HR-AR-13-002



                           Appendix C: Management's Comments




                                                 17
Overtime Use During Fiscal Years 2011 and 2012        HR-AR-13-002




                                                 18
Overtime Use During Fiscal Years 2011 and 2012        HR-AR-13-002




                                                 19
Overtime Use During Fiscal Years 2011 and 2012        HR-AR-13-002




                                                 20
Overtime Use During Fiscal Years 2011 and 2012        HR-AR-13-002




                                                 21
